<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                  

                          [H.A.S.C. No. 116-6]

                         INF WITHDRAWAL AND THE

                        FUTURE OF ARMS CONTROL:

                    IMPLICATIONS FOR THE SECURITY OF

                    THE UNITED STATES AND ITS ALLIES

                               __________

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 26, 2019

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-232                     WASHINGTON : 2019                     
          
-------------------------------------------------------------------------------
                                     
  


                    SUBCOMMITTEE ON STRATEGIC FORCES

                    JIM COOPER, Tennessee, Chairman

SUSAN A. DAVIS, California           MICHAEL R. TURNER, Ohio
RICK LARSEN, Washington              JOE WILSON, South Carolina
JOHN GARAMENDI, California           ROB BISHOP, Utah
JACKIE SPEIER, California            MIKE ROGERS, Alabama
SETH MOULTON, Massachusetts          MO BROOKS, Alabama
SALUD O. CARBAJAL, California        BRADLEY BYRNE, Alabama
RO KHANNA, California                SCOTT DesJARLAIS, Tennessee
WILLIAM R. KEATING, Massachusetts    LIZ CHENEY, Wyoming
KENDRA S. HORN, Oklahoma, Vice 
    Chair
               Grant Schneider, Professional Staff Member
                Sarah Mineiro, Professional Staff Member
                           Zach Taylor, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Cooper, Hon. Jim, a Representative from Tennessee, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

DeSutter, Hon. Paula, Former Assistant Secretary of State for 
  Verification, Compliance, and Implementation...................     6
Lugar, Hon. Richard G., Former U.S. Senator from Indiana.........     1
Vershbow, Hon. Alexander, Former Deputy Secretary General of NATO     3

                                APPENDIX

Prepared Statements:

    Cooper, Hon. Jim.............................................    25
    DeSutter, Hon. Paula.........................................    36
    Lugar, Hon. Richard G........................................    28
    Turner, Hon. Michael R., a Representative from Ohio, Ranking 
      Member, Subcommittee on Strategic Forces...................    26
    Vershbow, Hon. Alexander.....................................    31

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Cooper...................................................    73
    Mrs. Davis...................................................    74
    Mr. Garamendi................................................    78
    Mr. Larsen...................................................    77
                    
                    
                    
                    INF WITHDRAWAL AND THE FUTURE OF

                   ARMS CONTROL: IMPLICATIONS FOR THE

              SECURITY OF THE UNITED STATES AND ITS ALLIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                        Washington, DC, Tuesday, February 26, 2019.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2118, Rayburn House Office Building, Hon. Jim Cooper 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JIM COOPER, A REPRESENTATIVE FROM 
     TENNESSEE, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Cooper. The subcommittee will come to order. First let 
me ask unanimous consent that nonsubcommittee members be 
allowed to participate in today's briefing, after all 
subcommittee members have had an opportunity to ask questions. 
Is there objection? Hearing none, the subcommittee members who 
are here--nonsubcommittee members will be recognized.
    Thanks to the graciousness of the ranking member, we have 
agreed in the interest of time to dispense with our opening 
statements because this is, after all, a hearing, not a 
speaking. But they will be inserted for the record with 
unanimous consent. Hearing no objection, that will be 
accomplished.
    [The prepared statements of Mr. Cooper and Mr. Turner can 
be found in the Appendix on pages 25 and 26.]
    Mr. Cooper. We are fortunate today in the first hearing of 
the subcommittee to have three very distinguished witnesses 
and, in my opinion at least, the first witness is particularly 
distinguished, one of the greatest U.S. Senators of our era, 
Senator Richard Lugar of Indiana. We appreciate your being 
here. But we are also deeply honored to have Ambassador Sandy 
Vershbow here, former Deputy Secretary General of NATO [North 
Atlantic Treaty Organization]; and finally, the Honorable Paula 
DeSutter, former Assistant Secretary of State for Verification, 
Compliance, and Implementation. Having had a chance to look at 
their testimony, we should all be grateful they did such an 
excellent job preparing and informing this subcommittee. So 
without further ado, let's hear from the witnesses, starting 
with Senator Lugar.

 STATEMENT OF HON. RICHARD G. LUGAR, FORMER U.S. SENATOR FROM 
                            INDIANA

    Senator Lugar. Thank you, Mr. Chairman. I thank you and the 
ranking member for this opportunity. My contribution----
    Mr. Cooper. If you could get a little closer to the 
microphone that would be great.
    Senator Lugar. Yes, indeed. My contribution to the 
discussion today is based [less] upon analyzing the technical 
aspects of the Trump administration's decision to withdraw from 
the INF [Intermediate-Range Nuclear Forces] Treaty than on 
broader historical lessons that I have learned during 4 years 
of intensive work on reducing the threat of weapons of mass 
destruction.
    I was one of the original co-chairs of the Arms Control 
Observer Group, put together by President Ronald Reagan in the 
1980s to ensure a unity of purpose between the executive and 
legislative branches on arms control. I was a floor manager for 
every arms control treaty that came before the Senate from the 
INF Treaty in 1987 to the New START [Strategic Arms Reduction] 
Treaty in 2010. In conjunction with the Nunn-Lugar program, I 
have witnessed the safeguarding, or dismantling, of just about 
every type of weapon of mass destruction imaginable from 
Typhoon submarines and SS-18s, to Backfire bombers, millions of 
VX artillery shells, and laboratories housing anthrax and 
plague.
    Our relationship with Russia and our mutual interests in 
constraining the threat from weapons of mass destruction is a 
long game, not a short one. That being said, there can be no 
breaks in our determination each day to prevent disaster.
    I would like to offer a few principles that should inform 
deliberations on where we go from here.
    First, the Russians are in violation of the INF Treaty, but 
Russian violations are not a new phenomenon. A major feature of 
every arms control debate since 1987 was discussion of actual 
or potential Russian violations. Every President has dealt with 
this. I believe it is easy to expose, counter, and reverse 
those violations of the INF Treaty than without it--that is, 
within the treaty than without it.
    Second, arms control is not just about limits on weapons. 
Much of the value of agreements comes from verification 
provisions. There is safety in transparency. Our strategic 
relationship with Russia was never better than when Russian and 
American technicians were working together on Nunn-Lugar 
projects to circumscribe the decaying Russian arsenal under 
provisions of active arms treaties. We knew a lot about each 
other, and we were talking about it every day. The worst thing 
we can do is undercut verification procedures that give us a 
window on Russian activities and capabilities.
    Third, effective arms control is less about negotiating 
brilliance than it is about the accumulation of leverage. 
Withdrawing from the INF Treaty does nothing to bolster our 
leverage. It foolishly plays into the hands of Russian 
propagandists by focusing global attention on our rejection of 
the treaty rather than Russian violations. It complicates 
relations with allies, and it signals to the Iranians, North 
Koreans, and others who would pursue a nuclear arsenal, that we 
are devaluing our own historic legacy as the guarantor of legal 
frameworks designed to prevent nuclear proliferation.
    Finally, regardless of near-term decisions on the INF 
Treaty, drifting towards unrestrained arms competition would be 
an incredibly hazardous outcome. This does not mean the United 
States cannot modernize elements of its nuclear deterrent. But 
allowing verification procedures to expire and basing our 
security on the hope of winning an expensive arms race would be 
the height of irresponsibility. This isn't 1981. We live in an 
increasingly [multipolar] world that features cyber warfare, 
suicidal terrorism, additional nuclear states, and increased 
avenues to nuclear proliferation. We also had a sobering budget 
deficit of $779 billion in 2018.
    The bottom line is that jettisoning treaties that provide a 
legal framework for exposing Russian violations achieves 
nothing. We should be pursuing a consistent strategy that 
strengthens the Western alliance, makes sensible defense 
investments, and builds leverage that could put the arms 
control process back on track. To do that, we need much more 
consistency of purpose. The successful launching of an era of 
arms control by Presidents Reagan and Gorbachev, and [George] 
H.W. Bush, was achieved largely because Presidents rejected--or 
rather, projected a consistent foreign policy that undergirded 
international law, stood up to dictators, commanded respect, 
and united the free world. The United States returning to that 
posture would be a major setback for Russian oligarchs, and 
would strengthen United States ability to press a new strategic 
dialogue based on mutual interests. I thank the Chair.
    [The prepared statement of Senator Lugar can be found in 
the Appendix on page 28.]
    Mr. Cooper. I thank the Senator. Ambassador Vershbow.

 STATEMENT OF HON. ALEXANDER VERSHBOW, FORMER DEPUTY SECRETARY 
                        GENERAL OF NATO

    Ambassador Vershbow. Thank you, Mr. Chairman, Ranking 
Member Turner, members of the subcommittee. Thanks very much 
for the invitation to offer my views on the implications of the 
imminent demise of the INF Treaty for the future of arms 
control and strategic stability with Russia. It is an honor to 
be here with Senator Dick Lugar, who has played such a 
fantastic and prominent role in preventing nuclear 
proliferation since the end of the Cold War, and it is also 
good to be here with my former State Department colleague, 
Paula DeSutter.
    The INF Treaty had a transformational impact in ending the 
Cold War and stabilizing relations between the West and Moscow 
for more than three decades, and it came about thanks to the 
determination and resolve shown by the United States and its 
NATO allies when they adopted the dual-track decision in 1979 
in response to Soviet deployment of the SS-20 intermediate-
range ballistic missile. And it followed 2 years of very 
intense consultations within NATO, led by the United States.
    The deployment of U.S. Pershing II and ground-launched 
cruise missiles restored the balance in Europe, and reinforced 
the credibility of the U.S. nuclear guarantee, depriving the 
Soviets of what the nuclear experts called escalation 
dominance. And the NATO offer of an arms control alternative 
was, of course, initially rejected by the Soviet Union, which 
walked out of the talks when the first U.S. missiles went in in 
1983, hoping to derail those deployments by fomenting popular 
opposition. But NATO solidarity held, and Presidents Reagan and 
Gorbachev had the vision not just to limit INF, but to 
eliminate this entire class of systems.
    So the dual-track decision was a powerful demonstration of 
how to negotiate from a position of strength, and it gave 
impetus to talks to reduce strategic weapons and conventional 
armed forces in Europe.
    All that progress is now at risk with the U.S. decision to 
suspend its implementation of the INF Treaty, and withdraw from 
the treaty, together with Russia's decision to follow suit by 
suspending its implementation, as well.
    The risk is only heightened by the significant 
deterioration in the wider relationship between the West and 
Russia as a result of Putin's aggression against Ukraine and 
aggression against Western democracy writ large.
    Today's Russian leaders may be more prepared to use their 
nuclear weapons coercively than Soviet leaders in the 1970s and 
1980s as part of their strategy to weaken NATO and reestablish 
domination over Russia's neighbors.
    Now, the administration's decision to withdraw from the 
treaty is legally justified but I believe it was politically 
questionable. Legally Russia is clearly in material breach of 
its obligations and the administration has a certain logic in 
arguing that it is difficult to justify continuing to comply 
with a treaty that the other side is violating. And our NATO 
allies, having seen the evidence of Russia's violation, have 
supported the U.S. decision to withdraw as a legal matter, and 
they haven't bought into Russia's dubious countercharges that 
it is the United States, not Russia, that has violated the 
treaty.
    But our allies are concerned that politically we may have 
given a gift to President Putin, who has long sought to escape 
the INF Treaty's limitations so that Russia could counter INF 
missiles of countries like China and Pakistan not subject to 
the treaty's constraints. And it appears, based on the saber-
rattling we have heard just last week from President Putin, 
that Russia is bent on deploying additional INF systems and 
other new nuclear capabilities as part of a strategy of 
intimidating NATO and recapturing the escalation dominance that 
Russia lost when it scrapped the SS-20.
    And our withdrawal from the treaty will give Russia free 
rein to rapidly deploy ground-launch versions of its newest 
cruise missiles and hypersonic weapons in addition to the 
illegal 9M729. The U.S. and its allies have kept the door open 
to a diplomatic solution. They have made clear that if Russia 
agrees to dismantle its illegal missile, the U.S. could reverse 
its decision to suspend and withdraw from the treaty. But last-
ditch negotiations have been going nowhere and it now seems 
inevitable that the treaty will become a dead letter on August 
2, 6 months after the administration gave its notice to 
withdraw.
    In my view, however, we shouldn't give up on other possible 
arms control solutions that could at least mitigate the effects 
of the loss of the INF Treaty. So far, it appears that Russia's 
illegal cruise missile, while capable of carrying a nuclear 
warhead, has only been deployed as a conventional system.
    The United States and NATO, for their part, have downplayed 
any intention to deploy new nuclear-armed missiles in Europe. 
So one possible solution would be to challenge Russia to agree 
to a mutual renunciation of all nuclear-armed, land-based INF-
range missiles, including the 9M729, and to agree to mutual 
inspections to verify that no nuclear-armed versions are 
deployed by either side.
    And as part of this arrangement the U.S. and its allies 
could agree to Russian inspections of the U.S. missile defense 
sites in Romania and Poland to confirm that they have no 
offensive capability as Moscow has alleged. The sides could 
also, perhaps, agree to numerical limits on the permitted 
conventionally armed systems.
    Another solution would be for the United States and Russia 
to agree to refrain from deploying any land-based INF systems 
in or within range of Europe, while permitting some agreed 
number of such systems in Asia. We could even invite China to 
participate in such an arrangement, as President Trump 
suggested in his State of the Union address.
    A successor agreement along the above lines could help 
maintain stability and avert an unconstrained competition in 
intermediate-range systems, and it could improve the climate 
for talks on an extension or strengthening of the New START 
Treaty prior to its expiration in 2021, which I would strongly 
favor.
    Until we have exhausted the possibilities for a successor 
to the INF Treaty, we should proceed cautiously on the question 
of military countermeasures. We should review the options in 
close consultation with our NATO allies as we did in the 1970s 
in preparing the dual-track decision, since the allies are the 
ones that could literally be caught in the cross fire of any 
new U.S.-Russian missile competition in Europe.
    NATO has a lot of work still to be done to strengthen its 
overall defense and deterrence posture in Europe. Deploying new 
intermediate-range land-based missiles in Europe is not 
essential to these efforts and could be politically divisive 
within the alliance. And, in fact, I think there are many 
existing U.S. programs that could be adapted to negate the 
military advantage the Russians hope to gain with the 9M729, 
without developing a new intermediate-range ground-launch 
cruise missile of our own, and I mentioned these in detail in 
my prepared statement. We could also deploy additional missile 
defense systems to protect key military installations against 
Russian cruise missile threats.
    Now, I strongly believe NATO's assessment of the options 
should focus on conventional solutions, but we and our allies 
should make clear to Moscow that if Russia deploys nuclear-
armed INF missiles along NATO's borders, we don't rule out new 
nuclear arms systems of our own. We should keep the onus on 
Moscow, however, for any new arms competition in Europe.
    One final point: There may be a stronger case for deploying 
conventionally armed intermediate-range missile systems, both 
cruise and ballistic, in the Asia-Pacific region than in 
Europe. They could counter China's significant INF 
capabilities, and its threat to U.S. bases in Japan and Korea.
    Having said this, it remains to be seen if our allies, the 
Japanese and the Koreans, would agree to host these systems 
once they were developed or whether it would be more realistic 
to continue to rely on air- and sea-launch systems with these 
missions. Thank you very much. I look forward to your 
questions.
    [The prepared statement of Ambassador Vershbow can be found 
in the Appendix on page 31.]
    Mr. Cooper. Thank you. Ms. DeSutter.

STATEMENT OF HON. PAULA DeSUTTER, FORMER ASSISTANT SECRETARY OF 
     STATE FOR VERIFICATION, COMPLIANCE, AND IMPLEMENTATION

    Ms. DeSutter. Thank you, Mr. Chairman, Ranking Member 
Turner. It is an honor to be able to address you on what I 
believe is an important issue, and I think it is timely. Arms 
control agreements can be viewed as lines in the sand. The 
better agreements have that line as far as possible from the 
central elements of your national security and that of your 
allies. It is also important that they be effectively 
verifiable so that the U.S. can see if the line has been 
crossed, and if so, how far? This is important in order to 
provide time for the U.S. to detect and verify violations, seek 
their reversal, or to undertake action alone or with allies to 
take measures to deny the violator the benefits of his 
violation.
    When another party to an agreement crosses the line by 
violating the agreement, either they made a mistake, and that 
has happened numerous times across agreements, or they did it 
deliberately. One way to tell the difference is that if it was 
a mistake, once raised with them, you can expect them to take 
corrective action. In the case of the Russians, throughout the 
history of the INF Treaty we very often--they never admitted 
that it was a violation, said they were sorry or did anything 
like that, but they changed the behavior, they changed the 
practice, and came back into compliance.
    So if a country refuses to correct a violation, then it is 
a safe bet that the action was deliberate. Deliberate 
violations are undertaken to gain unilateral advantage over the 
party or parties that are compliant, and it provides early 
warning of a failure of deterrence. We all have heard that one 
of the purposes of verification is to deter the other party 
from violating the agreement and undertaking actions 
inconsistent with it. When you have a pattern of violations, it 
is a warning that deterrence writ large may be failing.
    When the United States draws a line in the sand and tells a 
country not to cross it, but then does not respond to willful 
repeated crossings of that line, that line and every other line 
we have drawn becomes more anemic. They are more likely to--
that country that has crossed the line and the other countries 
observing it may calculate, perhaps correctly, that they can 
violate the agreement, gain unilateral advantage, and will not 
be forced to pay any price.
    I am chagrined at the failure of the Obama administration 
to raise Russia's violation of the INF Treaty between 2010 and 
2013. The violation has been raised with Russia since 2013, but 
to no avail. After years of acquiescence followed by more years 
of diplomatic efforts to persuade Russia to eliminate the 
missile and come back into compliance, in my view, unilateral 
compliance was no longer an option.
    Some have argued that rather than withdraw from what has 
become a unilateral treaty, we should pursue the option of 
suspending operation of the treaty, in whole or in part, 
indefinitely. The problem with that is that we have an example 
where that has been tried unsuccessfully for over a decade.
    Russia suspended its implementation of the Conventional 
Forces in Europe, or CFE, Treaty in 2007. It has continued to 
violate it and has said it will not resume implementation of 
the treaty over a decade. But I do not believe that withdrawal 
from the INF Treaty is a sufficient response to Russian 
violation and circumventions of the INF Treaty.
    I believe that President Reagan's response to Soviet 
noncompliance offers lessons. First, he reported all cases of 
possible, probable, and certain violations to Congress and the 
public. If the language of the legislation that mandates the 
annual noncompliance report was read by the Obama 
administration as meaning the only issues that are clear 
violations need to be reported, or that only issues that have 
already been raised with the other party need to be reported, 
then perhaps the language needs to be clarified. Without this, 
Congress cannot be the strong ally it needs to be on these 
matters, particularly early on in the process.
    Second, President Reagan created the Arms Control 
Verification Committee, or ACVC as it was called, because we 
are arms controllers and we can't talk without acronyms. It was 
chaired by the National Security Adviser, and he did that in 
order to ensure ongoing high-level attention to the problem of 
noncompliance to ensure that verification is given high 
priority before, during, and after negotiations, to ensure the 
assessments of compliance and verification were robust and 
timely, and that these matters would be integrated into U.S. 
policies and programs. The high level of verifiability of the 
START I and INF treaties reflected the awareness of the 
importance the President placed on verification and compliance. 
I believe President Trump should recreate the ACVC, and make my 
successor, the Assistant Secretary for Verification and 
Compliance, the co-chair of that group.
    Third, President Reagan took action to deny the Soviet 
Union the benefits of their violations. He pursued forced 
modernization, but more importantly, he pursued missile 
defense. It certainly would be the easiest course of action for 
the Trump administration to just extend the New START Treaty, 
but doing so would be neither sufficient to address the 
ballistic missile threat to the U.S. and our allies from 
nations such as China, Iran, and North Korea, nor, in my 
opinion, would extending the new START be sufficient to 
constrain the rapidly growing ballistic missile threat from 
Russia.
    As for new multilateral agreements to constrain the missile 
threat to the U.S., I wonder what possible incentive other 
countries might have? I found a fun quote from 2013 when then-
Deputy Prime Minister, now Kremlin Chief of Staff, Sergei 
Ivanov explained, ``When I hear our American partners say let's 
reduce something else, I would like to say to them excuse me, 
but what we have is relatively new. They, the U.S., have not 
conducted any upgrades for a long time. They still use Trident 
missiles.''
    So we are also talking about the possibility of 
multilateral agreements with serial violators and 
proliferators. The probability of cheating by some or all will 
be significant and if the agreement is not effectively 
verifiable, we are unlikely to verify the cheating until too 
late to take effective action.
    But missile defense is offering an insurance policy against 
further and future cheating on arms control agreements, and so 
then, to me, the answer is deploy as rapidly as possible an 
effective layered missile defense to protect the American 
people from the threat of nuclear attack by our enemies, 
disincentivize investments by our current and future foes in 
offensive missiles tipped by weapons of mass destruction, and 
it is also true that deployment of a robust, expandable, 
layered missile defense could make future strategic and theater 
missile agreements, including multilateral ones, more viable as 
an effective tool in America's tool kit. I believe that this is 
a road that our country can take, and this committee can play a 
central role in facilitating that path. Thank you.
    [The prepared statement of Ms. DeSutter can be found in the 
Appendix on page 36.]
    Mr. Cooper. I thank the witnesses for their testimony. In 
view of the upcoming votes probably within the next 15 minutes, 
we will probably reconvene the hearing after votes, but I would 
like to get in as many questions and questioners as possible 
prior to that. So I will limit myself to one question 
initially.
    I would like to follow up with Ambassador Vershbow about 
his suggestion that we separate conventional from nuclear 
warheads in our consideration of salvaging what is left of the 
INF Treaty, so that we can at least protect our European 
friends from nuclear threats. Would you like to elaborate on 
that?
    Ambassador Vershbow. Yes, thank you, Chairman. It is not 
necessarily an easy solution, I think, as Paula can explain 
probably with more authority. When we signed the INF Treaty we 
followed the ``looks alike, counts alike'' rule because it is 
difficult to distinguish between versions of missiles, one with 
the nuclear and one with the conventional warhead. But I think, 
you know, we have gained a lot of experience both with the INF 
Treaty itself and with the New START Treaty in terms of very 
intrusive inspections. So if there were political will on the 
Russians' part to cooperate, I think we could have sufficient 
confidence that Russia honored an obligation only to deploy 
conventionally armed versions of this 9M729 and any future INF 
systems that they have in the pipeline.
    So it would, I think, avoid the kind of nuclear instability 
questions about the reliability of the U.S. guarantee. It would 
avoid getting into scenarios where the Russians would use 
nuclear-armed INF systems as part of their ``escalate to de-
escalate'' strategy, and limit the competition to 
conventionally armed systems, which may be sufficient to 
achieve most military tasks that we have in mind. I think that 
is why the administration has made clear it is not looking at 
nuclear options at this time as counterweight measures to the 
Russian system. So it could make a virtue--or necessity of 
virtue, or virtue of necessity, I am not sure which it would 
be. Thank you.
    Mr. Cooper. Thank you. The ranking member is recognized.
    Mr. Turner. Thank you, Mr. Chairman. I have a series of 
questions that all go together, so they are kind of bunched, 
and of one theme. Senator Lugar, you had said that one of the 
most important aspects of arms control treaties is their 
verification provisions, and I agree with you. I do want to 
point out that our understanding of the INF Treaty violations 
by Russia were not necessarily disclosed under the verification 
process of the INF Treaty. But I have a question for you that 
goes to what Secretary General Rasmussen just testified about 
before the Intelligence Committee this morning, and you have 
knowledge of this. And that is, that the United States had 
knowledge that the INF Treaty was being violated by Russia for 
a period of time, and as Ms. DeSutter was indicating, that some 
of this information wasn't even shared with the Senate, some of 
it was not shared with our allies.
    Secretary General--former Secretary General Rasmussen of 
NATO indicated that there is a gap between the U.S. sharing 
this type of information with our allies, and certainly that is 
one of our trust issues. Senator Lugar, do you share a similar 
concern about as we get information of violations in Russian 
activities of our lack of, perhaps, speed or boldness in 
sharing that information with our allies?
    Senator Lugar. Yes, I do share that problem very much. I 
indicated, as a matter of fact, that in this entire discussion 
right now, by getting out of the INF Treaty, once again, in a 
way, we undercut some of our leadership responsibilities with 
regard to our NATO allies in particular and European allies 
generally. This is not the first occasion of that sort during 
this administration, and it is a serious difficulty because we 
really need to be moving the other way. We need to be 
indicating our leadership with regard to NATO, with regard to 
our European alliances, and a good way of attempting to fortify 
that, or maybe for them to change the attitude now, is to think 
through precisely what you have suggested, that we make known 
when violations occur, or the very best of our intelligence 
about this situation because currently one of the reasons why 
we have entered the INF Treaty was to stop development of 
weapons that could cause grave destruction in Europe. And so we 
really needed to do the other part of the project, and that is 
to gain great support among European defense officials and 
those involved in intelligence and particularly in missile 
technology about new information that we receive.
    Mr. Turner. Thank you. Sandy, as you know, I have a high 
regard for both your career and your contribution to, you know, 
international security, and certainly our country's security. 
In your opening statement you reference your work in the late 
1970s on the INF Treaty, and, of course, its establishment in 
1987 as a significant milestone.
    When the treaty was signed in 1987, did Russia possess 
weapons at that time that would have been in violation of the 
treaty that required them to destroy or dismantle weapons? It 
wasn't just a restriction on future capabilities, right? Wasn't 
it actually a restriction on capabilities that they possessed?
    Ambassador Vershbow. Yes, Congressman, absolutely. They 
still had in their arsenal the SS-20, as well as earlier 
generation intermediate-range ballistic missiles, SS-4s and SS-
5s, I think they were, and also some shorter range systems, 
which were also subject to the treaty going down to the 500-
kilometer range threshold that captured, I think, some other 
existing systems. So it was a--that is why the treaty was such 
a significant event. It led to the destruction of several 
different categories of missiles.
    Mr. Turner. And, Sandy, they can do that now, right? Since 
we have known since 2010 of the violations we have made it--
them aware of our assertion of the violations since 2013, and 
this administration, prior to beginning the process of 
withdrawing, gave Russia notice and said we want you to come 
into compliance with the treaty. They could do that now, right? 
They could destroy the weapons that are not in compliance, so 
they could come into compliance.
    Ambassador Vershbow. Yes, that is correct. The 
administration has had several meetings with the Russians where 
they have, you know, reaffirmed the judgment that this missile 
is unequivocally in violation of the treaty, based on the 
evidence we have of observing its flight test. It is not just 
extrapolation; we have seen it fly the ranges in excess of the 
INF limit. And that the only way to restore compliance, restore 
the integrity of the treaty, would be to dismantle and destroy 
all such missiles that have been produced, and I think they 
have 100 at least fielded. There may be more in production.
    Mr. Turner. And this violation has not just an element of 
the treaty or a minor provision, it goes to the core of the 
treaty itself, does it not?
    Ambassador Vershbow. Indeed it does, and I think that is 
why, in legal terms, we are using the very strong term material 
breach. It goes to the essence of what the treaty was----
    Mr. Turner. You can't have a treaty of one, that is why the 
NAC [North Atlantic Council] at NATO and certainly the NATO 
Summit, both the NAC and the world leaders at the NATO Summit 
made very strong statements identifying that Russia was in 
violation of the INF Treaty. Would you agree with that?
    Ambassador Vershbow. Yes. Going back to several of the 
ministerial meetings last year, also at the Summit in Brussels, 
the communicator made a very strong statement about the treaty 
violation. Although allies--coming back to this issue of 
intelligence sharing, allies only this year kind of accepted 
very conclusive unequivocal language because the U.S. finally 
showed them the more sensitive details underpinning our 
assessment that have been done either in the first year and a 
half of the Trump administration or during the Obama 
administration. And this is partly an intelligence community 
issue about not compromising sources and methods, but I think 
in this case it got in the way of an allied consensus.
    Mr. Turner. Great. And then my final question. Many people 
state that our allies are very concerned about the U.S. 
withdrawal, but I know you are aware because we were in the 
same hearing together that former Secretary General Rasmussen 
of NATO said that he supports the decision of the United States 
to withdraw. At the Munich Security Conference, Merkel, 
Chancellor Merkel, made the statement that she supports the 
United States withdrawal--not just that she supports the U.S. 
determination that there is an INF violation, which they were 
slow to come to, but supports the withdrawal and, in fact, went 
the next step, which I thought was extraordinary, calling on 
Russia and China to join with the United States to initiate a 
new phase of INF. And, in fact, I believe--you know, I was just 
at the NATO Parliamentary Assembly, and many members of the NAC 
but certainly Secretary General Stoltenberg made similar 
comments that this now represented an opportunity for Russia, 
the United States, and China, all to come together.
    So you are aware that some very significant allies of the 
United States have made statements in support of our 
withdrawal?
    Ambassador Vershbow. Yes, that is absolutely true, and I 
think the administration did a good job in--after perhaps a few 
false steps at the beginning in how this decision was rolled 
out, but they did a good job in consulting with allies and 
step-by-step building a strong consensus which you heard at the 
Munich Security Conference.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Cooper. Thank you.
    Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman. Ms. DeSutter, I would 
like to begin with you. You note in your prepared testimony 
that Rose Gottemoeller, your successor at the State Department, 
was responsible for producing a compliance report by law every 
year. Is that correct?
    Ms. DeSutter. Yes.
    Mr. Moulton. So was the Department also legally obligated 
to doing the same during your time as Assistant Secretary from 
2002 to 2009?
    Ms. DeSutter. Yes.
    Mr. Moulton. And do you happen to know how many times the 
Obama administration delivered a compliance report to Congress?
    Ms. DeSutter. Mr. Moulton, I will be the first one to say 
that my successor did a far, far better job than I did at 
getting out the annual reports. I will also note, some of you 
may remember that the intelligence community was in the 
process, during some of that time, of reevaluating how they 
were going to write intelligence reports and footnotes, and the 
biggest mistake I made is that for years I was the one that 
held the pen on the noncompliance report, and I was afraid as 
Assistant Secretary that if I got too involved with it, I would 
get swept back up and consumed by it.
    It is one of the big mistakes I made as Assistant 
Secretary, so they were far more significant. We had a report. 
We just couldn't get it put to bed. And it was--it was massive, 
and very thorough.
    Mr. Moulton. I appreciate your candor. Thank you. Senator 
Lugar, in your testimony, you specifically mention the 
importance of leverage and verification in arms control. How 
can the U.S. best develop leverage to get to and to negotiate 
an INF replacement? What does follow-on verification look like?
    Senator Lugar. Well, in addition to the comments that have 
been made about better cohesion with our European allies, it 
seems to me we need to be thinking more about missile defense 
than about really the ways in which we negate the value of 
these missiles or the warheads and what have you. This is a 
very complex and controversial subject all by itself, but at 
the same time, in response to your question, it has a way at 
least of moving the subject along in terms of negotiation, and, 
likewise, in terms of safety for the parties that are involved.
    Mr. Moulton. May I ask the Ambassador, at an event in 
Washington on December 14, Senator Tom Cotton said that the 
Pentagon should rapidly develop new intermediate-range missiles 
despite uncertainty about where they could be fielded, quote, 
``Basing questions can obviously be controversial, but that 
will be a decision to be made for the future.'' To your 
knowledge, have any countries in Europe agreed to host U.S. 
ground-launched intermediate systems within their border?
    Ambassador Vershbow. None have agreed to host them, because 
they haven't been asked. This is still a hypothetical 
possibility, depending on how the review of the different 
options unfolds inside NATO, but the administration has not 
asked anyone to host these missiles, either in Europe or in 
northeast Asia.
    Mr. Moulton. Well, let me ask you this, I mean, do you 
sincerely believe that NATO supports, quote, ``fully 
withdrawing from the treaty''? You know, many foreign ministers 
and key noted NATO leaders have previously made public 
statements urging the U.S. not to withdraw. How do you square 
that with what we have heard today?
    Ambassador Vershbow. Well, I think different allies have 
slightly different nuances in their position. I think they all 
have come around to the conclusion that the Russians are in 
material breach, and that there is a justification for 
withdrawing, and that there is really no alternative. But I 
think many of them are emphasizing the need to, you know, make 
the last ditch effort before the treaty literally goes out of 
business on August 2 to see if there is a way of rescuing the 
treaty through arms control, and if not, many have also spoken 
of some kind of successor agreement to keep some form of 
constraint on this category of systems if we can't save the INF 
Treaty itself.
    Mr. Moulton. Senator Lugar, back to you, a successor 
agreement like the Ambassador states is something that many of 
us would like to see if the INF Treaty goes away. Many of us 
would also like to see it expand into the Asia-Pacific region. 
Walk us through how that might occur, how we might build an INF 
Treaty to encompass the threat from China?
    Senator Lugar. Well, first of all, I suspect that--first of 
all I suspect that we would make that point to the Russians. We 
would indicate literally that this isn't the end of the story, 
and that even if the INF Treaty finally falls by the wayside, 
something else is going to follow that is more comprehensive 
and of greater safety to more countries.
    Mr. Moulton. Thank you, Senator, and thank you, Mr. 
Chairman.
    Mr. Cooper. The gentleman's time has expired. Mr. Wilson, 
we have a few minutes here before we have to go.
    Mr. Wilson. Yes, and thank you, Chairman Jim Cooper, and I 
would like to thank all of you for being here, but particularly 
Senator Lugar. You have benefited my constituents. The family 
of Chip Andre, your former Chief of Staff, Taylor Andre, you 
inspired to become the legislative director in our office. He 
was trained also by Senator Lindsey Graham, and now he is the 
Chief of Staff to Congressman Mike Gallagher, because of your 
inspiration, so thank you very much.
    And indeed, Ms. DeSutter, in your written statement and you 
stated when the United States draws the line in the sand and 
tells the country not to cross it, but does not respond with 
repeated willful crossing, that line and every other line we 
will have drawn will become anemic. Russia has repeatedly and 
willfully violated the treaty and it is irrational that we 
remain the only actor in compliance. With that, the question I 
am particularly concerned about the constraints of the INF 
Treaty on our ability to execute the National Defense Strategy 
with regard to great powers competition. We must be able to 
counter strategic threats from our two competitors, Russia and 
China. How is China exploiting our compliance in order to 
advance their missile arsenal threatening the interests of the 
Indo-Pacific region?
    Ms. DeSutter. Thank you, Mr. Wilson. One of the things 
about how the United States conducts itself with regard to arms 
control is that not only would the U.S. never, by law and by 
process, intentionally violate an arms control obligation. 
Moreover, the process is designed to make sure that we never 
even get close to that line. And so, it is not just that the 
treaty would prohibit certain things, but more that it tells 
the Pentagon, don't go in that direction.
    Mr. Wilson. Thank you very much. And also with Russia 
violating the treaty, and as pointed out by Congressman Turner, 
NATO has supported withdrawal. What is the advantage of 
remaining in an unenforced treaty? Won't the withdrawal 
demonstrate peace through strength in that it would incentivize 
Moscow to return to the negotiating table while enabling the 
United States to better protect our allies and national 
security interest?
    Ms. DeSutter. Yes. I believe that the withdrawal--and I 
must say that I don't recall a violation where there has been 
such widespread consensus that it was not only a violation, but 
a material breach. But the withdrawal, since we have been 
unable since 2013 to get them to come back into compliance, and 
it is very similar, disturbingly, to the situation with the CFE 
Treaty: continued compliance by the United States, they would 
believe that we won't really do it, we won't really get out, 
and they will be able to continue to have us constrained and no 
one else.
    So while they wanted out of the treaty for a long time, it 
was only after the United States indicated we might get out 
that they suddenly thought the INF Treaty was a good thing that 
they wanted. It is not only important for Russia, but it is 
important for every other country that we might be concerned 
about because they watch. These countries watch what happens. 
And if they see Russia continue to get away with this, 
especially since it has been public since 2013 and 2014, they 
will believe that the United States does not take compliance 
seriously, and does not--is not willing to belly up to the bar 
to pay the price to either bring them back into compliance or 
to respond to deny them the benefits.
    Mr. Wilson. And we have seen the consequence of not 
following a red line, and so thank you for raising that. How 
does withdrawal from the INF Treaty impact Russia's ability to 
acquire new systems and technological or strategic advances 
with intermediate-range missiles? Would Russia have acquired 
similar systems and weapons in continued direct violation of 
the treaty if the U.S. had not withdrawn?
    Ms. DeSutter. I believe that they--they've undertaken some 
effort to try to muddy the waters about whether or not it was a 
violation, and certainly, in preparation for this hearing, I 
have been pretty amazed at how many programs they have where, 
for example, they use the standard launcher for many different 
systems that are very confusing. And one other thing that I 
would mention is we did have experience with the issue of 
nuclear versus nonnuclear warheads with the SS-23 missiles, and 
so your staff can go back and look at that, but we had no idea 
that Russia had given to the Czech Republic, Eastern Germany, 
and Poland, SS-23 missiles. Originally, they said that they 
were just conventional warheads. We did find conventional 
warheads, but then we found that they had also been given the 
connecting sections to deploy a nuclear warhead. Russia 
obviously--Soviet Union certainly never would have given 
command and control of the nuclear warheads to their allies 
because they liked them even less than they liked us, but they 
would have come in and taken control.
    It is very difficult to do and, you know, the Verification 
Commission that is part of the INF Treaty would have to be very 
deliberate in trying to make new agreements in order to figure 
out how to implement any subsequent limitations.
    Mr. Wilson. Thank you very much. My time is up.
    Mr. Cooper. The subcommittee will stand in recess. We will 
return, and we will take at least 20 minutes, but immediately 
after the last vote we will be back. Thanks.
    [Recess.]
    Mr. Cooper. The subcommittee will come to order.
    I apologize. I thought it was two votes we had. It turned 
out to be four votes. It took a little longer than we thought.
    Until other members come, I was going to ask a few 
questions. We haven't focused as much on New START as we 
probably need to. And it seems like the options are either to 
extend it, to renegotiate it, to not extend it, and one where 
the witnesses even suggested returning to the SORT [Strategic 
Offensive Reductions Treaty] agreement previous.
    So, Senator Lugar, I would like to start with you, and ask 
what you think it would take to successfully negotiate either 
an extension or an improvement on the New START agreement?
    Senator Lugar. I believe that the verification provisions 
of New START are important, to begin with, leaving aside 
anything else. It seems to me to be really a safety net there.
    But I think--I go back in my own memories to a debate on 
the START, New START, to begin with.
    It was quite a debate within the Republican Party at that 
time. Senator McConnell, our leader, and Jon Kyl, particularly 
outspoken, were not in favor, really, of reducing the number of 
warheads and missiles and whatever were involved in New START.
    We have been moving from the time of Nunn-Lugar all the way 
down from roughly 10,000 warheads, and New START is 1,550 as it 
wound up. And there were some in--not only the Congress, but 
the administration, who thought it was time to rebuild some of 
our armament, not to be reducing the number of weapons.
    Now, fortunately, a two-thirds majority was finally found, 
but not easily. I remember vividly that the vote on New START 
occurred after Christmas in that year of 2010 over the protests 
of many Members wanting not to come back for something of that 
variety. And 23 days before the end of the year, a two-thirds 
majority was found with a good number of Republicans voting 
against it.
    That I mention because subsequent to New START, there has 
not really been any movement in the Senate, that I can recall, 
for a reduction of the 1,550 to a lower total, quite apart from 
many of the elements of the New START situation.
    I think, in terms of the safety of the world, it would be a 
good idea to consider that. But it has not been on the table 
for 9 years. No one really has made any initiative in the 
administration or in the Senate.
    So we have left at least those limits and the verification 
aspect of it that may back up some other arms control 
agreements that could occur that we have been discussing 
earlier in the hearing.
    But it is important to be renewed. To absent, leave the INF 
Treaty, and then to leave New START altogether, really calls 
for a total new beginning. And right now, I don't see that kind 
of initiative in the administration or the Congress.
    So we had best hold onto what we have there, at least 
offers, at least some, not necessarily safety net, but at least 
some provisions that are helpful, it seems to me, in terms of 
safety.
    Mr. Cooper. The press has reported that the President is 
interested in perhaps winning a Nobel Prize for his work with 
North Korea. Perhaps he could be persuaded to win a Nobel Prize 
by reducing nuclear weapons, because I think as Churchill said, 
we already have enough to make the rubble bounce.
    And perhaps 1,000 would be sufficient, or another number 
like that, if other countries could also be persuaded to reduce 
theirs.
    Ambassador Vershbow, would you say that we should extend, 
renew, improve, terminate the New START agreement?
    Ambassador Vershbow. I favor extending it, which isn't 
mutually exclusive from also seeking, over the longer term, to 
improve it. But I think the treaty itself allows for a straight 
extension for up to 5 years. It could be extended for a shorter 
period if there was an effort to already begin work on a 
follow-on agreement. I would worry that they were trying to get 
a whole new agreement in the time remaining before the 
expiration of New START might be insufficient.
    But I think the agreement, as it stands, even with the 
current ceilings, is a contribution to stability, 
predictability. And as important as the limits in the 
agreement, are the verification and transparency requirements, 
which I know our military is very attached to because it gives 
them far more understanding of Russian strategic forces and 
where they are going, enables them to avoid worst-case 
assessments of the Russian programs.
    So I think it would be in our interest to extend it. If we 
think that there is some technologies that need to be factored 
into the treaty that aren't covered, then the treaty has some 
provisions allowing for discussion and amendment of the treaty 
to do that.
    The INF issue, if it can't be resolved in a standalone 
agreement, could conceivably be addressed in a follow-on 
agreement. But I would start by extending it, building a little 
more cushion of time to consider any additional constraints.
    Paula DeSutter mentioned missile defense. There is no 
contradiction between continuing to develop and deploy missile 
defense systems while maintaining the New START agreement. I 
think there is still questions about our ability to effectively 
counter the sophisticated Russian strategic forces, which are 
getting even more sophisticated with these hypersonic glide 
vehicles and other things.
    But missile defense does have a place in our overall 
deterrence strategy, and it can be done while we maintain a new 
START.
    Mr. Cooper. My final question is whether the State 
Department today is even staffed adequately to negotiate some 
of these new agreements, because it is our impression that 
several executive agencies are short-staffed.
    Do either of you happen to know?
    Ms. DeSutter. Mr. Cooper, my impression is that the 
Verification Bureau not only had to take on responsibility for 
some arms control negotiations, but I think that they are 
losing staff. And I think that they are going to need--it can 
be a very technical issue.
    And so when the State Department came and said, you know, 
Paula, you have to do a diversity report, I am, like, well, 
what?
    And he said, How many people, what color, and background.
    And I said, Okay. I have four different kind of nuclear 
people: Nuclear engineers, nuclear chemists. You know, I have 
three different kinds of chemists. It is very diverse, and it 
is very technical. And they are going to need to be bulked up 
in a way that I think that they have not been.
    Mr. Cooper. Thank you.
    Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chair. And welcome to all the 
witnesses here.
    You know, first, there was the withdrawal of the JCPOA 
[Joint Comprehensive Plan of Action] and now the INF. 
Obviously, the message and the trend that we are establishing 
go towards what I feel is damaging and destabilizing. These 
agreements, these treaties, go beyond their objectives to 
prevent development and proliferation of lethal weapons. And 
more importantly, they continue a framework of communication 
and access to information that we otherwise would not have. And 
I am concerned that, without those treaties in place, we are at 
a major disadvantage and going backwards instead of forward in 
reducing proliferation.
    This administration and some former officials have stated 
that China is not limited by the INF Treaty and that U.S. 
withdrawal would benefit U.S. military planning in the Pacific.
    I have four questions, but I am going to ask two of them at 
a time to not overwhelm you. The first question: Does the INF 
prevent the United States from meeting its military 
requirements against China? And, two, do you believe it is 
militarily necessary for the United States to deploy INF 
weapons in the Pacific region?
    To any and all of you.
    Ambassador Vershbow. I will go first.
    First of all, I agree with you, Congressman, that the 
erosion of all the different agreements and constraints on arms 
competition and on proliferation is worrisome, particularly 
when we are dealing with a far more aggressive Russia and a 
more aggressive China as well.
    But on the specific questions, there are already existing 
systems in our arsenal or in development that can meet the 
requirements in Asia-Pacific region. But there may be an 
advantage to having ground-launch systems in addition to the 
existing air-launched and sea-launched systems, just because 
our naval vessels have multiple missions, and it is hard to do 
all the roles on one platform.
    But we can target military targets deep inside of Chinese 
territory today, and, you know, we can deal with the Chinese 
Navy. But INF-range missiles, over time, as Chinese 
capabilities improve, could enhance our ability to do these 
kinds of deep strike, or anti-ship missions.
    So we can do it now, but we might be able to do it better 
with INF. But it is choice whether this is the place to spend 
our money or not. And as I said in my statement, whether we 
would have an easy time convincing allies to host these systems 
on their territory, particularly Japan and Korea, which would 
be the logical place, is, in my view, doubtful. We saw 
tremendous controversy when we put the THAAD [Terminal High 
Altitude Area Defense] ballistic missile defense systems in 
Korea, which are defensive systems, the Chinese freaked out, 
and even imposed sanctions on Korea. And so, I think they will 
be a bit wary of going through that again. We can put them in 
Guam, but it is not the ideal location to deploy such systems.
    So that is how I would respond to your question.
    Ms. DeSutter. Well, I would like to say that, for me, and I 
am not a Pentagon planner, I am not in the region making 
decisions about this, and so there may be offensive-related 
upgrades that need to be done. I don't know. But for me, the 
answer to an offensive buildup of the kind that China has 
pursued, which I must say, when all of this issue came up and I 
was having to speak about it, I did some research into what 
kind of ballistic missile deployments is China pursuing, and I 
was amazed.
    I cannot see how we could counter with offense the Chinese 
buildup. And I don't think that is the way to go. I think the 
way to go is defense. And I think that had we had 10 years ago 
the kind of ballistic missile defense capabilities President 
Reagan envisioned, we wouldn't be seeing that kind of buildup 
in China.
    What we need to do is deploy the missile defense so that 
they will see that they have wasted their money, they and the 
Russians.
    Mr. Carbajal. I see I am out of time. I yield back.
    Thank you very much.
    Mr. Cooper. Thank you.
    Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    I just had a question for Senator Lugar.
    In your testimony, you made it clear that Russia was in 
violation of the INF Treaty. It is a belief I have and I think 
most of us have. It is a belief our NATO allies have had. I was 
there last week in Brussels, and they joined on with that 
statement.
    However, they had a strong feeling, at least in discussions 
I was involved with, that they wanted to use a 6-month period 
to reengage Russia into serious discussions about trying to 
revive the treaty, or aspects of that treaty.
    And could you just share some of your experience dealing 
with other Presidents? Because violations of treaties are not--
it is not a new phenomenon. It happens. But you have had some 
experience.
    Can you share with us some possible inroads or techniques 
that could be employed that you have seen other Presidents try 
to use to try and revive some of these discussions the way I 
think we are going to get great support if we begin doing that 
with our European allies as well?
    Senator Lugar. Well, first of all, I would comment that the 
President has to want to get back into the discussions. At this 
point, there is not evidence that that is the case. But leaving 
aside his current attitude, I think some of the allies, and if 
you have met with them recently, you would be well-informed, 
really are very hopeful for a United States leadership in this 
area, for some vision, some prospects of hope, as opposed to 
simply indicating if we are going to go to the end of the line, 
and that is it, and there is really nothing out there. There is 
really a desire for something to be out there.
    So ideally, there would be members of the administration, 
maybe even Members of Congress, who would pick up the ball at 
this point and say it is time to get ahold of some Russians.
    What is occurring in the press is President Putin is making 
all sorts of threats. He gave at least some type of press 
release the other day that listed specific targets in the 
United States that he found attractive to think about.
    Well, this is a serious business. It really does require 
right now at the highest levels that we get back in touch with 
the Russians and discuss what is going on. It seems to me it 
has been convenient for the administration to say, after all, 
these violations have been going on now for several years and 
it is simply time to wind that [inaudible] up. While at the 
same time, Putin is coming back and saying that he is really 
prepared to sock it to them. And we better take that seriously. 
We really need to engage the Russians right now and reassure 
our European allies that we are prepared to do that, maybe even 
enlist some of them to be a part of that situation.
    Mr. Keating. Yeah. I agree with you in your belief that--
there is no indication that I received last week that we are 
taking this period and using it to try and revive talks or gain 
further commitments, which is disappointing, but it is also 
disappointing to our allies.
    Senator Lugar. Yes.
    Mr. Keating. And there is something you touched upon 
briefly that I think is worth emphasizing. And that is the fact 
that even our attempt to do so would continue to put us in a 
more mantle--a greater mantle of leadership on these rather 
than being seen, even though they are the violators, even the 
perception that we are the ones retreating from this.
    And also, I was really struck with some of the real 
fissures that are there with our allies right now. And to me, 
there is a positive benefit in--for no other reason, showing 
them that we want to work along lines that they so strongly 
feel, as their allies, even if it is not successful.
    Do you have any comments on that?
    Senator Lugar. Well, we have already been through a period 
in which the President attacked NATO in a way by saying the 
allies have got to pay their fair share, that they are not 
meeting their obligations, and almost implying that it is not 
America's role to defend all these nations of NATO regardless 
of World War II and subsequent developments. That is a very 
dangerous attitude to take.
    What we really need right now is a revival of NATO, a 
revival of the spirit of the allies, clarity on our part that 
we are prepared to be a leader. And their excitement, or, at 
least, approval of the fact that that is the case, that they 
want us around, they want us to be helpful in this respect.
    This won't help to keep condemning treaties as the worst 
one ever made. There really has got to be a time now in which 
we get together with our partners.
    Now, we could use this time because of this discussion we 
are having about the INF Treaty to say this is a good time to 
turn things around and begin to have these talks, begin to have 
this planning.
    Mr. Keating. Well, thank you.
    I yield back.
    Mr. Cooper. I thank the gentleman.
    The last question will be the ranking member's.
    Mr. Turner. Thank you.
    Senator, following on what you have said about recently we 
have had Putin making very aggressive statements that are also 
coupled with his nuclear modernization.
    I have a question for the Ambassador.
    When we look at what Putin is doing in his modernization, 
he is developing nuclear weapon systems that are outside of the 
INF and New START, which he is bragging about and is obviously 
very destabilizing. For example, his hypersonic weapons, a 
nuclear-powered cruise missile, and a nuclear-powered 
underwater drone called Poseidon, which apparently are outside 
of the New START.
    How do you believe we should respond to the fact that--
obviously there is significant proliferations, significant 
increase that is occurring to the United States with these 
weapons, these types of weapons, and instability as we approach 
the renewal of New START.
    Ambassador Vershbow. Thank you, Congressman.
    Putin certainly has been making a lot of aggressive 
statements lately, and he seems quite excited by all these new 
technologies and wonder weapons that his scientists are 
producing. Most of the other scientists in Russia are 
emigrating. But at least in the military, they are going 
strong.
    But I think we will have to, first of all, assess whether 
these new systems, if they do get deployed, whether they are 
covered or not. I think, you know, the hypersonic weapons may 
be delivered by ballistic missiles, intercontinental ballistic 
missiles, in which case we should try to insist that they are 
covered and subject to numerical limits, although that still 
doesn't address potential qualitative edge that the Russians 
may gain.
    The nuclear cruise missile, that one I am skeptical ever 
will be fielded to have a nuclear reactor on each missile so it 
can fly endlessly around the world. But the range clearly would 
be intercontinental, so presumably, that would count as well. 
And this Poseidon underwater drone that surfaces off the coast 
and devastates everything within hundreds of miles, that one 
does defy categorization.
    So we do have to potentially look to expand the coverage of 
the New START Treaty. That doesn't mean we shouldn't extend it 
on its own terms, at least as a short-term stabilization 
measure. But we are clearly going to have to figure out ways to 
address these new technologies and others that may emerge in 
the coming years.
    A traditional paradigm for arms control goes back to the 
1970s. Clearly, we will have to find ways to incorporate 
restrictions and verification measures that work for new 
technologies if arms control is to remain viable.
    But I think it is worth pursuing that. Even with the 
Russian violation of the INF Treaty, it is in our interest to 
kind of limit their ability to deploy and to gain the 
transparency about their new technologies so that we are not, 
kind of, caught by surprise in the coming years.
    Mr. Cooper. That concludes the questioning.
    I would like to thank the witnesses for their expertise, 
for their testimony, and for their patience.
    The hearing is adjourned.
    [Whereupon, at 3:57 p.m., the subcommittee was adjourned.]

     
=======================================================================

                            A P P E N D I X

                           February 26, 2019
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 26, 2019

=======================================================================

            
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 26, 2019

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. COOPER

    Mr. Cooper. As the floor manager in the Senate for every arms 
control agreement from INF through New START, did you ever think you 
would see a Republican president follow the Russian lead in abandoning 
the INF treaty and to create doubt about even extending New START?
    Senator Lugar. Many things have happened in the past two and a half 
years that I never thought I would see.
    Mr. Cooper. Is there any way to persuade John Bolton and President 
Trump that the U.S. should hold Russia's feet to the fire of having 
breached the INF Treaty and even try to expand the Treaty to include 
China instead of abandoning it?
    Senator Lugar. As I noted in my testimony, ``jettisoning treaties 
that provide a legal framework for exposing Russian violations achieves 
nothing.'' However, I believe it is unlikely that this White House will 
reverse course and go back to the negotiating table to try to save the 
treaty. Russia has given no indication that it would meet U.S. demands 
for an inspection of its noncompliant missiles; and the United States 
is similarly unwilling to address Russia's concerns about U.S. treaty 
compliance, notably the fielding of U.S. missile defense interceptor 
launchers in Europe that Moscow says could be used to launch offensive 
missiles in violation of the agreement. In his Feb. 6 State of the 
Union address, Trump alluded to negotiating a new intermediate-range 
missile agreement that would also include China, but the administration 
has not yet raised the issue with China, which possesses hundreds of 
land-based, intermediate-range missiles. Joining the INF Treaty would 
mean that China would have to eliminate 95 percent of its missile 
arsenal. Limits on Chinese military capabilities are worth pursuing, 
but we will have to put something on the table in return.
    Mr. Cooper. What would be the national security risks of allowing 
the New START Treaty to expire without any serious effort to extend or 
renegotiate it?
    Senator Lugar. If New START is allowed to expire without a 
replacement, there will be no legally binding limits on the world's two 
largest strategic nuclear arsenals for the first time since 1972. The 
collapse of the U.S.-Russia arms control architecture would mean 
Russian nuclear forces were unconstrained, our ability to verify what 
Russia is doing would be curtailed, and the incentives to engage in 
costly nuclear competition would be magnified. I agree with the 
conclusion of a recent Center for Naval Analyses report: ``If New START 
expires without an imminent replacement treaty, the United States would 
face increased risks and uncertainties in its relationship with Russia, 
its nuclear non-proliferation strategy, and its ability to sustain 
solidarity within the North Atlantic Treaty Organization (NATO).'' 
Without the treaty's monitoring and verification regime, the United 
States would probably need to divert resources to observing Russian 
nuclear forces via national technical means but would not be able to 
completely make up for the loss information provided by the treaty. 
Without the treaty's constraints, the United States and Russia would 
each have incentives to invest in costly increases to the size of their 
arsenals.
    Mr. Cooper. You noted in your testimony that the Arms Control, 
Verification and Compliance Bureau is losing staff. In your view, what 
are the reasons for staff leaving? Do you have ideas on ways to retain 
and add the staff necessary to police current arms control treaties and 
agreements, and to negotiate and implement future treaties and 
agreements?
    Ms. DeSutter. The short answer is that the Verification and 
Compliance Bureau was created by Congress against the wishes of the 
Department of State, and unfortunately the Department has generally 
treated the Bureau, its mission, and its personnel as the ``skunks at 
the garden party.'' It is demoralizing to work in an organization whose 
efforts and accomplishments are unwanted, unappreciated, or outright 
rejected by the Department of State Bureaucracy, especially the office 
to which it reports, the Under Secretary for Arms Control and 
International Security (T). The Bureau is a creature of Congress, and 
only with ongoing Congressional interest, oversight, and support will 
it stand any chance of fulfilling the mission for which Congress 
created it.
    The full answer to your question, Mr. Cooper, requires a bit of 
historical perspective. When the U.S. Arms Control and Disarmament 
Agency was merged into the Department of State in 1997, Congress, 
specifically the Senate Foreign Relations Committee Chairman and 
Ranking Member, Senators Helms and Biden, made clear that the 
verification and compliance aspects of arms control agreements be given 
a voice at the most senior level of the Executive Branch, through the 
creation of an Assistant Secretary for Verification. Senators Lugar and 
Biden continued to hold this view. In 1999, the Chair and Vice Chair of 
the Senate Select Committee on Intelligence, Senators Shelby and 
Kerrey, underscored the importance of a State Department Bureau focused 
on the verification and compliance function--and separated from the 
arms control negotiation function. They noted that: ``previous efforts 
to merge these functions were rejected in three previous 
Administrations.'' The Bureau's creation was made law in the ``Arms 
Control and Nonproliferation Act of 1999'', contained in the omnibus 
Appropriations Act, Public Law No: 106-113.
    I served as the second Senate-confirmed Assistant Secretary of 
State for Verification and Compliance. In that capacity I welcomed a 
close working relationship with both Houses of Congress, especially on 
such matters as implementing Libya's decision to give up its weapons of 
mass destruction, and in trying to get Russia to comply with its treaty 
obligations. I hold the firm belief that when the Executive and 
Legislative Branches are understood by other nations to have a common 
view, other nations are far more willing to cooperate. This perspective 
may be demonstrated in the 1991 unclassified Krasnoyarsk radar case 
study provided to the Director of the U.S. Arms Control & Disarmament 
Agency and appended in answer to Mr. Garamendi's Question 15.
    In 2005, the Department merged the functions of the State 
Department Arms Control Bureau with the Departments Bureau of 
Nonproliferation. Because the Verification and Compliance Bureau was 
enacted in law, formal changes could not be made to its functions, but 
it was determined that the Assistant Secretary would be responsible for 
some negotiation and implementation functions, specifically, overseeing 
the Conventional Forces in Europe Treaty, including the Review 
Conference, and negotiating a follow-on to START with the Russian 
Federation. The name of the Bureau was changed within the Department to 
the Bureau of Verification, Compliance and Implementation. As a 
verification purist, I neither sought out these missions nor wanted 
them, explaining to the Under Secretary for Arms Control and 
International Security that I would prefer to have my fingernails 
broken below the quick. Although I of course sought to represent the 
United States as best I could in these fora, these missions were a 
significant drain on our efforts to focus on verification and 
compliance assessment.
    While the Bureau with responsibility for negotiating with North 
Korea in the Six Party Talks, the East Asia and Pacific Bureau (EAP), 
successfully kept Bureau personnel from having a direct influence on 
the Talks throughout the Bush Administration, during the 2nd Bush 
Administration term the acting Under Secretary for Arms Control and 
International Security assisted EAP in its efforts. While I had 
initially disagreed with the assessment of the Inspector General that 
the VC Bureau should report directly to the Secretary, I subsequently 
think that might be best.
    Perhaps emboldened by the addition of some negotiating missions to 
the Bureau while it was under my leadership, Secretary Clinton went 
further by moving more negotiating functions to the Bureau under the 
new title she gave it: the Arms Control, Verification and Compliance 
Bureau. I believe that the addition of the arms control negotiating 
functions was a distraction from the legally mandated core missions and 
thus a likely contributor to what I believe to be the low verifiability 
of both the New Start Treaty and the Joint Comprehensive Program of 
Action (JCPOA).
    To reiterate, any organization will lose its best staff if their 
work is ignored and rejected, and if senior personnel cut them out of 
the action. As I noted in my oral statement, I believe the Trump 
Administration should recreate the Reagan Administration's Arms Control 
Verification Committee (ACVC) to enhance the strength and effectiveness 
of the Bureau.
    If Congress wants an organization, especially one that is a 
creature of Congress like the Verification and Compliance Bureau, to 
succeed and be able to not only exert the appropriate influence within 
the Executive Branch but also to be able to provide Congress with the 
best, most reasoned and rigorous analysis possible, all relevant 
Committees must be--and be seen by the bureaucracy to be--its allies 
and supporters.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MRS. DAVIS
    Mrs. Davis. Thank you all for your testimonies and for your past 
and current efforts to make our world a safer place. I'd like to know 
your respective opinions on where and how Congress should move forward 
from here in working with this administration, given that the 
Administration has functionally decided to withdraw from the Treaty.
    Senator Lugar. Congress has the ability to press the administration 
on its strategy to prevent a new Euro-missile race and increased 
instability in the absence of the INF Treaty. Congress, via the power 
of the purse, also has the ability to prevent the administration from 
taking steps, such as testing and fielding new and unnecessary land-
based intermediate-range missile systems, that would result in a new 
Euro-missile race and increased instability. Several members of 
Congress have already proposed legislation along these lines. For 
example, Congress could condition funding to develop new missiles on 
receipt from the administration of a comprehensive military, economic, 
and diplomatic strategy to bring Russia back into compliance with the 
treaty. Congress could also condition funding for new missiles on 
agreement among all NATO allies that such missiles are needed.
    Mrs. Davis. Why do you think Russia decided to violate the INF 
treaty and what are their motivations for alleging U.S. violation of 
the treaty? As this Administration notes, they have not violated the 
New START Treaty. What explains Russian behavior?
    Senator Lugar. The reasons for Russia's violation are unclear. But 
I believe the violation was likely due to a number of factors, 
including a desire to augment Russia's theater strike capabilities, 
provide another option to evade U.S. and NATO missile defenses, 
internal inter-military service rivalry within Russia, and a 
longstanding view that the INF Treaty disproportionally constrained 
Russia given that several states that border or are near Russia are not 
parties to the treaty and possess land-based intermediate-range 
missiles. None of which is to excuse Russia's illegal and egregious 
violation. Based on the information divulged publicly by the U.S. 
government to date, it appears Russia believed it could covertly 
develop the 9M729 without getting caught. If Russia believed that the 
INF Treaty was no longer in its interest, it could have legally 
exercised the withdrawal provision contained in the treaty. 
Unfortunately, Russia's decision to violate the treaty is consistent 
with other actions it has taken in contravention of international law. 
I believe Russia continues to abide by New START because it benefits 
from the legally-binding caps on U.S. nuclear forces and insight about 
U.S. nuclear forces provided by the treaty's monitoring and 
verification provisions. It should be noted that Russia is developing 
new kinds of strategic weapons that it claims are not subject to New 
START because the weapons fly on non-ballistic trajectories. I believe 
the United States should seek engage Russia on limiting these systems 
and that an extension of New START would provide the time and space to 
do so.
    Mrs. Davis. Thank you all for your testimonies and for your past 
and current efforts to make our world a safer place. I'd like to know 
your respective opinions on where and how Congress should move forward 
from here in working with this administration, given that the 
Administration has functionally decided to withdraw from the Treaty.
    Ambassador Vershbow. As I stated in my testimony, the 
Administration's decision to withdraw from the INF Treaty was legally 
justified but politically questionable. Legally, Russia is clearly in 
material breach of its obligations by developing, testing and now 
deploying a ground-launched cruise missile, the 9M729, with a range 
that far exceeds the Treaty limit of 500 kilometers. But instead of 
continuing to pressure Moscow to reverse its violation of the Treaty, 
the Administration has given Russia free rein to deploy more illegal 
9M729s and other new ballistic and cruise missiles that could increase 
the threat to U.S. forces in Europe and to the security of our NATO 
Allies.
    I would recommend that the Congress continue to urge the 
Administration to pursue a successor agreement to the INF Treaty that 
could, at least, mitigate the effects of the loss of the INF Treaty. 
One possible solution would be to challenge Russia to agree to a mutual 
renunciation of all nuclear-armed, land-based INF-range missiles 
(including the 9M729) and to agree to mutual inspections to verify that 
no nuclear-armed versions are deployed by either side. As part of this 
arrangement, the United States and its allies could agree to Russian 
inspections of the U.S. missile defense sites in Romania and Poland to 
confirm that they have no offensive capability as Moscow has alleged. 
In addition, the sides could agree to numerical limits on permitted 
conventionally-armed systems.
    Another solution would be for the United States and Russia to agree 
to refrain from deploying any land-based INF systems in or within range 
of Europe, while permitting some agreed number of such systems in Asia. 
We could invite China to participate in such an arrangement as well.
    A successor agreement along the above lines could help maintain 
stability and avert an unconstrained competition in intermediate-range 
systems. It could also improve the climate for negotiations on an 
extension or strengthening of the New START Treaty prior to its 
expiration in 2021 (which I strongly favor).
    Until we have exhausted the possibilities for a successor to the 
INF Treaty, we should proceed cautiously on the question of military 
countermeasures. We should review the options in close consultation 
with our NATO Allies, as we did in the 1970s in preparing the dual-
track decision, since the Allies could be caught in the middle of any 
new U.S.-Russian missile competition in Europe.
    Mrs. Davis. With respect to NATO and our Allied Partners: do you 
have specific recommendations on a constructive manner to seek 
stakeholder input in the face of an administration that has appeared to 
question its existence? And given your experience in both Europe and 
Asia, please describe the political challenges with attempting to base 
intermediate range missiles on Allied territories. Do you believe they 
are necessary to defend the United States and our Allies?
    Ambassador Vershbow. The United States is likely to be more 
successful managing the consequences of Russia's violation of the INF 
Treaty if we act in close coordination with our NATO Allies. This is 
the lesson to be drawn from the original INF dual-track decision taken 
by NATO in 1979. The dual-track decision was a powerful demonstration 
of how to negotiate from a position of strength. It not only led to the 
elimination of an entire class of nuclear weapons, but gave impetus to 
talks to reduce strategic weapons and conventional armed forces in 
Europe as well.
    In the wake of the Russian violation of the Treaty and deployment 
of the illegal 9M729 ground-launched cruise missile, we should consult 
closely with our Allies--in Europe and in Northeast Asia--on the full 
range of potential response options, both conventional and nuclear. 
There may be some responses involving air-launched and sea-launched 
systems that could neutralize the deep-strike threat posed by the 9M729 
but would not require Allied agreement to base new systems on their 
territory, which could be politically controversial.
    If the U.S. and its Allies decide that ground-based systems are 
necessary to deprive the Russians of any military advantage from the 
9M729, we should consider options that minimize the chances of a 
popular backlash as much as possible--keeping in mind that Russia will 
do everything possible to foster public opposition using threats and 
disinformation, It may be easier to secure Allied agreement to base new 
weapons on their territory if the systems are conventional and do not 
require any change in NATO's existing nuclear posture or the U.S. 
nuclear posture in the Pacific. As was the case in Europe in the 1980s, 
to allay public anxieties our Allies may favor a dual-track approach in 
which we offered to reduce or eliminate our deployments if Russia 
agreed to reduce or eliminate its deployed 9M729s and other INF-range 
systems.
    Mrs. Davis. Why do you think Russia decided to violate the INF 
treaty and what are their motivations for alleging U.S. violation of 
the treaty? As this Administration notes, they have not violated the 
New START Treaty. What explains Russian behavior?
    Ambassador Vershbow. The INF Treaty was always controversial within 
the Soviet Union and Russia. Gorbachev overruled Soviet military 
leaders in agreeing to give up the then-new SS-20 missile and the 
USSR's other INF systems. They considered retention of ground-based 
missile systems as vital for the USSR, as a land power.
    In 2005, senior Russian officials proposed that the United States 
and Russia ``jointly withdraw'' from the INF Treaty, arguing that the 
strategic situation in Eurasia had changed dramatically since the INF 
Treaty was concluded in 1987. They pointed to the emergence of medium- 
and intermediate-range ballistic missile threats on Russia's periphery, 
and argued that Russia needed its own medium- and intermediate-range 
systems to deter these threats. The United States declined to take 
Russia up on its offer for a joint withdrawal from the INF Treaty.
    Clearly, Russia did not abandon its ambition to break free of the 
INF Treaty's restrictions in 2005. Moscow continued to modernize its 
air- and sea-launched cruise missiles (which it has demonstrated to 
great effect in Syria), and chose the clandestine route to the 
development of an intermediate-range ground-launched cruise missile, 
the 9M729, perhaps expecting it would not get caught.
    Even with the exposure of its violation, Russia appears determined 
to retain these systems because of the capability they provide to 
strike theater-level targets in both Europe and Asia. The 9M729 also 
supports Russia's evolving Anti-Access Area Denial (A2AD) strategy, 
which seeks to deny the United States and NATO access to key ports, 
airfields, and command and control nodes during a conflict. As a mobile 
system, the new system also improves the survivability of Russian 
theater-strike systems.
    As regards Russian allegations of U.S. violations, these are for 
the most part attempts to deflect criticism of Russian non-compliance 
and are largely specious. That said, the United States could afford to 
be more transparent about the capabilities that Russia alleges are 
inconsistent with the Treaty in order to convince publics--at home and 
abroad--that Russia is primarily responsible for the demise of the INF 
Treaty.
    Mrs. Davis. Thank you all for your testimonies and for your past 
and current efforts to make our world a safer place. I'd like to know 
your respective opinions on where and how Congress should move forward 
from here in working with this administration, given that the 
Administration has functionally decided to withdraw from the Treaty.
    Ms. DeSutter. Congress can make a significant contribution to 
convincing Russia and other nations to comply with their obligations to 
avoid such situations in the future.
    For example, during a meeting I attended of the ABM Treaty's 
Standing Consultative Commission, I handed over to the Soviet side a 
copy of a Congressional Resolution on the Krasnoyarsk Radar. The 
message to the violating party was that the strong view not only of the 
Executive Branch, but also the Legislative Branch, that the violation 
had to be reversed, carried significant sway in their eventual decision 
to correct the violation. This was especially true since the Soviets 
had tried to undermine the U.S. position by not only the usual 
allegations of U.S. noncompliance but also by inviting a group of 
Congressmen to visit the radar in 1987 to try to mislead them regarding 
the violation.
    On another occasion, when Russia was failing to provide accurate 
declarations of their stocks of chemical weapons and impeding a visit 
by U.S. experts to discuss the problem, I asked Senator Lugar and his 
staff to weigh in with Russia, which they did via a letter to Russia 
with, as I recall, references to Senator Lugar's ongoing leadership of 
the Nunn/Lugar program. It helped.
    Congress can endeavor, preferably working with the Department of 
State's Assistant Secretary for Verification and Compliance and other 
Executive Branch representatives, to identify ways, including passage 
of resolutions and perhaps other legislation, to publicly demonstrate 
to Russia and other nations that both the Executive and Legislative 
Branches are committed to full compliance with all obligations of arms 
control and nonproliferation agreements.
    Mrs. Davis. With respect to NATO and our Allied Partners: do you 
have specific recommendations on a constructive manner to seek 
stakeholder input in the face of an administration that has appeared to 
question its existence? And given your experience in both Europe and 
Asia, please describe the political challenges with attempting to base 
intermediate range missiles on Allied territories. Do you believe they 
are necessary to defend the United States and our Allies?
    Ms. DeSutter. [The information was not available at the time of 
printing.]
    Mrs. Davis. Why do you think Russia decided to violate the INF 
treaty and what are their motivations for alleging U.S. violation of 
the treaty? As this Administration notes, they have not violated the 
New START Treaty. What explains Russian behavior?
    Ms. DeSutter. Clearly Russia has believed that the cost of being in 
verified violation with the INF Treaty was less than the benefits of 
doing so. I believe that the Obama Administration's failure to report 
the INF Treaty violations to Congress and failure to raise the issue 
with Russia and demand that they come back into compliance starting 
back in 2010 when they detected the noncompliance encouraged Russia to 
believe that their violation of the INF Treaty would be cost free.
    As to Russian allegations of U.S. noncompliance, since the very 
first report to Congress on Soviet Noncompliance in 1984 Russia has 
consistently sought to divert attention from its own noncompliance by 
alleging U.S. noncompliance. This was one reason behind the 1993 merger 
of the President's Report to Congress on Soviet Noncompliance and the 
Report on Adherence to and Compliance with Agreements which mandated a 
discussion of U.S. compliance.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LARSEN
    Mr. Larsen. Does INF withdrawal make New START extension more or 
less likely? What is your assessment of the impact on national security 
if New START is not extended, both in terms of loss of warhead 
restrictions and verification regimes?
    Senator Lugar. In the likely event the INF Treaty collapses in 
August, the only remaining bilateral U.S.-Russia arms control agreement 
would be New START, which expires in 2021 but can be extended by up to 
five years through agreement by both parties. I am concerned that the 
Trump administration has yet to develop a position on whether to extend 
the treaty and that some White House officials have in the past called 
for abandoning the treaty. I am also concerned that the politicization 
of Russian concerns about U.S procedures to eliminate certain U.S. 
delivery systems from accountability under the treaty and U.S. concerns 
about Russia's development of new kinds of strategic weapons. As was 
the case with the INF Treaty, I worry that both sides are laying the 
groundwork to blame the other for not extending the treaty. If New 
START is allowed to expire without a replacement, there will be no 
legally binding limits on the world's two largest strategic nuclear 
arsenals for the first time since 1972. Which makes it all the more 
important to extend the treaty and restart a serious U.S.-Russia arms 
control dialogue. The collapse of the U.S.-Russia arms control 
architecture would mean Russian nuclear forces were unconstrained, our 
ability to verify what Russia is doing would be curtailed, and the 
incentives to engage in costly nuclear competition would be magnified.
    Mr. Larsen. What is the national security benefit of verification 
regimes under arms control agreements, in terms of intelligence, trust, 
and transparency?
    Ambassador Vershbow. Verification regimes, if effectively designed 
and implemented in good faith, provide the United States confidence in 
the other side's compliance with its obligations under arms control 
agreements. Together with good intelligence, they also help provide 
early warning of any potential violation by the other side, enabling 
the U.S. to raise the issues at an early stage and seek corrective 
action before the other side can gain an unfair military advantage. 
Verification regimes, by mandating additional transparency about the 
sides' capabilities, can reduce reliance on worst-case assessments and 
provide the additional predictability needed for long-term military 
planning.
    Mr. Larsen. Is it worth trying to negotiate a new INF treaty and if 
so, what should it look like? Should it include China?
    Ambassador Vershbow. A new agreement to replace the INF Treaty 
could, at least, mitigate the effects on stability of the loss of the 
Treaty. One possible solution would be to challenge Russia to agree to 
a mutual renunciation of all nuclear-armed, land-based INF-range 
missiles (including nuclear versions of the 9M729) and to agree to 
mutual inspections to verify that no nuclear-armed versions are 
deployed by either side. As part of this arrangement, the United States 
and its allies could agree to Russian inspections of the U.S. missile 
defense sites in Romania and Poland to confirm that they have no 
offensive capability as Moscow has alleged. In addition, the sides 
could agree to numerical limits on permitted conventionally-armed 
systems.
    Another solution would be for the United States and Russia to agree 
to refrain from deploying any land-based INF systems in or within range 
of Europe, while permitting some agreed number of such systems in Asia. 
We could invite China to participate in such an arrangement as well, 
although I do not consider that essential.
    A successor agreement along the above lines could help maintain 
stability and avert an unconstrained competition in intermediate-range 
systems. It could also improve the climate for negotiations on an 
extension or strengthening of the New START Treaty prior to its 
expiration in 2021 (which I strongly favor).
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. The Trump Administration's Nuclear Posture Review 
also notes that the Administration will seek ``arms control agreements 
that enhance security, and are verifiable and enforceable.'' Do you 
believe the New START Treaty meets that threshold? The Administration 
has also noted as recently as this month that Russia is in compliance 
with the New START Treaty.
    Senator Lugar. Yes, I believe New START meets this threshold with 
one exception. Our military leadership continues to affirm the security 
benefits provided by the treaty. Gen John Hyten, the head of U.S. 
Strategic Command, told the Senate Armed Services Committee on February 
26 that the treaty allows him to ``understand what [Russia's] limits 
are and . . . position my force accordingly,'' and provides 
``unbelievably important'' insight about what Russia is doing through 
the treaty's verification procedures. When asked whether the treaty 
inspections, data exchanges, and notifications could be replaced in a 
timely and cost-effective manner in the absence of the agreement, Hyten 
noted that the United States has ``very good intelligence capabilities, 
but there's really nothing that can replace the eyes-on, hands-on 
ability to look at something.'' But no president has--or could have--
negotiated an arms control agreement that could be enforced on the 
United States.
    Mr. Garamendi. When Russia violated the 1972 Anti-Ballistic Missile 
(ABM) Treaty in the 1980s by building the Krasnoyarsk radar, how did 
the United States confront Russia about its violation? How long did it 
take Russia to come back into compliance? What lessons can be learned?
    Senator Lugar. There is precedent for using patient diplomacy to 
resolve treaty violations. In the 1980s, President Ronald Reagan 
continued to observe the 1972 Anti-Ballistic Missile Treaty with Moscow 
despite its determination beginning in 1983 that a large radar located 
at Krasnoyarsk in Siberia violated the treaty. It also engaged in 
negotiations with the Soviet Union on the INF Treaty and what became 
the Strategic Arms Reduction Treaty during this period. It took time, 
but diplomacy worked, and the Soviets in 1989 pledged to tear down the 
radar.
    Mr. Garamendi. The Trump Administration's Nuclear Posture Review 
also notes that the Administration will seek ``arms control agreements 
that enhance security, and are verifiable and enforceable.'' Do you 
believe the New START Treaty meets that threshold? The Administration 
has also noted as recently as this month that Russia is in compliance 
with the New START Treaty.
    Ambassador Vershbow. Yes, I believe continued compliance with the 
New START Treaty is in the U.S. interest. The Treaty places limitations 
on the number of strategic nuclear systems that Russia can deploy 
against the United States and our Allies and ensures strategic 
stability. Through New START's on-site inspection regime, data 
declarations and notifications, the Treaty provides the United States 
with key insights into Russian strategic nuclear forces that we might 
not have access to without the Treaty. According to the U.S. Department 
of State, Russia is adhering to its obligations under the Treaty.
    Mr. Garamendi. When Russia violated the 1972 Anti-Ballistic Missile 
(ABM) Treaty in the 1980s by building the Krasnoyarsk radar, how did 
the United States confront Russia about its violation? How long did it 
take Russia to come back into compliance? What lessons can be learned?
    Ambassador Vershbow. The Soviet Union's construction of the large 
phased-array radar station near Krasnoyarsk was a bone of contention 
between the United States and the USSR for several years. The Reagan 
administration first detected the construction of the site in 1983 and 
immediately raised it with Moscow--both at political levels and in the 
Standing Consultative Commission (SCC). The SCC was the mechanism for 
addressing compliance questions under the 1972 Anti-Ballistic Missile 
(ABM) treaty. The U.S. charged that the facility in the heart of 
eastern Siberia violated the ABM Treaty, which permitted early-warning 
systems only on the country's periphery and oriented outward.
    The Soviet government denied any violation until 1987, when Soviet 
leader Mikhail Gorbachev ordered construction halted and allowed the 
U.S. to inspect the site. A year later the Kremlin announced it was 
transferring Krasnoyarsk to the Soviet Academy of Sciences for 
conversion into an international center of space research, a decision 
that did not sufficiently address the treaty violation. In 1989 the 
Soviet Union announced it would raze the facility after Foreign 
Minister Eduard Shevardnadze admitted it violated the ABM treaty. The 
radar's dismantlement was completed in 1992.
    The lessons to be learned from this are mixed. On the one hand, 
persistence and perseverance by the Reagan and Bush-41 Administrations 
clearly paid off in achieving the unprecedented decision by Moscow to 
admit and correct a serious Treaty violation. On the other hand, the 
Soviet decision was taken by Mikhail Gorbachev, over the objections of 
the Russian military. It is likely seen by today's Russian leaders as 
an example of weakness that should not be repeated. Certainly, the 
Russians' refusal to admit their violation of the INF Treaty, despite 
ample evidence proving its culpability, suggests that Russia has drawn 
the wrong lessons from the Krasnoyarsk radar.
    Mr. Garamendi. The Trump Administration's Nuclear Posture Review 
also notes that the Administration will seek ``arms control agreements 
that enhance security, and are verifiable and enforceable.'' Do you 
believe the New START Treaty meets that threshold? The Administration 
has also noted as recently as this month that Russia is in compliance 
with the New START Treaty.
    Ms. DeSutter. I do not believe that the New START Treaty is 
effectively verifiable, and therefore while it might be accurate for 
the Administration to say that they ``have not found Russia to be in 
violation with the New START Treaty,'' a statement that Russia is ``in 
compliance'' with New START is not meaningful. As I said in my written 
statement to the Committee, given the counting rules and other 
weaknesses in New START, the legal break-out potential is limitless, 
and while all the inspections may have given the impression of 
effectiveness, many have no real verification benefit. I believe that 
the weaknesses and flaws in New START were persuasively articulated in 
the minority views in the Executive Report on the Treaty. The concerns 
expressed in the minority report are underscored by the fact that 
Russia is deploying so many new missiles with both strategic and 
theater options without a finding of noncompliance in the years since 
entry into force.
    The easiest course of action for the Trump administration would be 
to simply extend the New START Treaty for five years. But if the 
administration does so, it should ensure that doing so does not create 
a false sense of security here or abroad. It will be important to be 
clear with all that extending New START will be neither sufficient to 
constrain the rapidly growing ballistic missile threat from Russia nor 
from nations such as China, Iran, and North Korea. Only U.S. deployment 
of a robust multilayered missile defense to render their ballistic 
missiles impotent offers any real promise of countering the threat, and 
thereby demonstrate to other nations that their ballistic missile 
programs are a waste of resources and that the United States will not 
permit other nations to hold the American people hostage to their 
threats.
    Mr. Garamendi. When Russia violated the 1972 Anti-Ballistic Missile 
(ABM) Treaty in the 1980s by building the Krasnoyarsk radar, how did 
the United States confront Russia about its violation? How long did it 
take Russia to come back into compliance? What lessons can be learned? 
[Question #15, for cross-reference.]
    Ms. DeSutter. Congress can make a significant contribution to 
convincing Russia and other nations to comply with their obligations to 
avoid such situations in the future.
    For example, during a meeting I attended of the ABM Treaty's 
Standing Consultative Commission, I handed over to the Soviet side a 
copy of a Congressional Resolution on the Krasnoyarsk Radar. The 
message to the violating party was that the strong view not only of the 
Executive Branch, but also the Legislative Branch, that the violation 
had to be reversed, carried significant sway in their eventual decision 
to correct the violation. This was especially true since the Soviets 
had tried to undermine the U.S. position by not only the usual 
allegations of U.S. noncompliance but also by inviting a group of 
Congressmen to visit the radar in 1987 to try to mislead them regarding 
the violation.
    Congress can endeavor, preferably working with the Department of 
State's Assistant Secretary for Verification and Compliance and other 
Executive Branch representatives, to identify resolutions and perhaps 
other legislation designed to demonstrate to Russia and other nations 
that both the Executive and Legislative Branches are committed to full 
compliance with all obligations of arms control and nonproliferation 
agreements. Congress can reinforce these messages during Co-Dels.
    Mr. Garamendi. Since at least 2011, you have called for the United 
States to leave the INF Treaty. Would you agree that, now, given the 
Administration's withdrawal from the INF Treaty, having the RS-26, one 
of Russia's newer nuclear ballistic missiles, counted against New START 
limits is beneficial?
    Ms. DeSutter. I do not know whether Russia has agreed or will agree 
that the RS-26 be counted against New START limits, nor do I know 
whether or when it will be included in the aggregate numbers.

                                [all]
</pre></body></html>
